rl

C@OCKLE

. E-Mail Address:
Le ga L Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 FE
Est. 1923
[-800-225-6964 Web Site

(402) 342-2831 www.cocklelegaibriefs.com
Fax: (402) 342-4850

No. _

PAUL G., a conserved adult, by and through
his conservator STEVE G.,
Petitioner,
vs.
MONTEREY PENINSULA UNIFIED SCHOOL DISTRICT
and CALIFORNIA DEPARTMENT OF EDUCATION,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 5254 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of February, 2020.
Lam duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . Le ,
My Commission Expires Nov 24, 2020 a

Notary Public Affiant

 

 

39487
